HHS/OIG, Audit -"Review of Medicare Disproportionate Share Hospital Payments for Methodist Hospital - Memphis for Fiscal Year 1999,"(A-04-03-02023)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Disproportionate Share Hospital Payments for Methodist Hospital - Memphis for Fiscal Year 1999," (A-04-03-02023)
November 3, 2003
Complete
Text of Report is available in PDF format (307 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine if Methodist Hospitals (Hospital) claim for Medicare disproportionate share
hospital (DSH) reimbursement was in compliance with Medicare reimbursement criteria.  The hospital claimed $22,059,968
in Medicare DSH reimbursement.  Our review focused on the Medicaid eligible days and the Supplemental Security Income
(SSI) ratio used by the hospital to support its claim.  We found that the Hospitals Medicare DSH claim included $3,057,727
that was unsupported and/or otherwise unallowable.  The unallowable claim occurred because the Hospital overstated
the Medicaid eligible days and the supplemental security income ratio used in its revised DSH calculation.  We found
9,522 of the 67,068 Medicaid eligible days included in the Hospitals claim to be either unsupported or non-allowable.  The
Hospitals SSI ratio was incorrect because the Hospital improperly combined two SSI ratios in its DSH calculation.  The
Hospital used a blended SSI ratio of 15.62 percent, while the correct ratio for FY 1999 was 15.335 percent.  We recommended
that the Hospital reduce the amount claimed for Medicare DSH by $3,057,727.  We also recommended that the Hospital
improve its procedures for verifying Medicaid eligibility.